No.

IN THE
SUPREME COURT OF THE UNITED STATES

Kevin Thurlow - Petitioner
vs.
Warden N.H. State Prison - Respondent(s)

APPENDIX TO
Petitioner's Petition For Writ Of Certiorari

CONTENTS:
I. Judgment By: United States Court of Appeals for the First Circuit
II. Order By: United States District Court of New Hampshire............
III. Report and Recommendation By: United States District Court......
IV. Order Denying Motion for New Trial (State Court) ......................
V. Timely Motion for Reconsideration (State Court) ...................
VI. Order Declining Timely Discretionary Appeal (State Supreme Court)

,A1
A2
A3
A28
A55
A56

K- tiBSei -19-1891

Document: 00117667876

Page: 1

Date Filed: 11/12/2020

Entry ID: 6381161

United States Court of Appeals
For the First Circuit
No. 19-1891
KEVIN THURLOW,
Petitioner - Appellant,
v.
MICHAEL ZENK, Warden, NH State Prison,
Respondent - Appellee.
Before
Howard, Chief Judge.
Lynch and Kayatta, Circuit Judges.
JUDGMENT
Entered: November 12, 2020
Petitioner-Appellant Kevin Thurlow seeks a certificate of appealability ("COA") to appeal
from the denial and dismissal of his § 2254 petition in the district court. After careful review of
petitioner's submissions and of the record below, we conclude that that the district court's rejection
of Thurlow's claims was neither debatable nor wrong, and that petitioner has therefore failed to
make "a substantial showing of the denial of a constitutional right." 28 U.S.C. §2253(c)(2); see
Slack v. McDaniel, 529 U.S. 473,484 (2000). Accordingly, Thurlow's application for a certificate
of appealability is DENIED.
Thurlow's motion for appointment of counsel on appeal is ALLOWED.
The appeal is hereby terminated.
By the Court:
Maria R. Hamilton, Clerk
cc:
Kevin Thurlow, John P. Newman, Elizabeth Christian Woodcock

r>

*

Case l:16-cv-0Q512-SM Document 30 Filed 08/28/19 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF NEW HAMPSHIRE

Kevin Thurlow
v.

Case No. 16-CV-512-SM

NH State Prison, Warden

ORDER
After due consideration of the objection filed, I herewith
approve the Report and Recommendation of Magistrate Judge Andrea
K. Johnstone dated August 13, 2019.

Additionally, finding that

the petitioner has failed to make substantial showing of the
denial of a constitutional right, the court declines to issue a
certificate of appealability.

See 28 U.S.C.§ 2253(c)(2); Rule

11, Rules Governing Habeas Corpus Cases Under Section 2254;
First Cir. LR 22.0.

Steven J./McAuliffe
Onited States.District Judge
Date: August 28, 2019
cc:

John P. Newman, Esq.
Elizabeth C. Woodcock, Esq.

* <**

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 1 of 25

•*

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW HAMPSHIRE

Kevin Thurlow
v.

Civil No. 16-cv-512-SM

Warden, New Hampshire State Prison

REPORT AND RECOMMENDATION
Petitioner Kevin Thurlow, a prisoner in the custody of the
New Hampshire Department of Corrections, has filed a petition
for a writ of habeas corpus (Doc. No. _1) pursuant to 28 U.S.C. §
2254 .

Before the undersigned magistrate judge for a report and

recommendation are the parties' cross-motions for summary
judgment (Doc. Nos. 24, 26).
Both motions are duly opposed.

See Apr. 2, 2019 Notice; LR 72.1.
See Doc. Nos. 25, 27.

Background
Thurlow is currently serving a 43-86-year prison sentence,
pursuant to his convictions for six felony sexual assault
offenses and three manufacturing child pornography offenses.
See Nov. 28, 2012 Mittimuses, State v. Thurlow, No. 281-2010-CR1686 (N.H. Super. Ct., Rockingham Cty.)

("State Criminal Case");

Def.'s Brief, State v. Thurlow, No. 2012-0935 (N.H. May 28,
2013) , at 10-30.

Thurlow's convictions were for offenses he
1

\

/

Case l:16-cv-Q0512-SM Document 28 Hied 08/13/19 Page 2 of 25

committed in 2004 against his (then) stepdaughter, L.G.

See

("Criminal Appeal"), 2014 N.H.

State v. Thurlow, No. 2012-0935,

LEXIS 32, at *2, 2014 WL 11621685, at *1 (N.H. Feb. 26, 2014).
The record in this case reveals the following facts.
Thurlow married L.G.'s mother, Linda Daigle, in 2001, when
L.G. was five years old.

At the time, Daigle had two children,

L.G. and an eight-year-old son, A.G.

When Thurlow engaged in

the conduct for which he was convicted, he lived in Epping, New
Hampshire with Daigle, A.G., L.G., and Thurlow's two sons, one
from a previous relationship, and one born to Daigle.

Until

2008, when Thurlow's offenses came to light, A.G. and L.G. spent
the school year with Daigle and Thurlow in Epping, and spent
summers in Vermont with their father.
Thurlow sexually assaulted L.G. at

their house, on more

than one occasion, before and while L.G. was in the second,
third, and fourth grade.

When L.G. was 11 or 12 years old,

Thurlow told her that he wanted to take pictures of her in a
bathing suit.

She agreed, and posed for Thurlow, wearing a

bathing suit.

After taking a number of photographs, Thurlow

directed L.G. to move her bathing suit to the side to expose her
genitals and breasts.

She did so, and Thurlow took photographs

in which L.G.'s genitals and breasts were exposed.
In July 2008, after L.G. and her brother had left Epping to
spend the summer with their father in Vermont, Daigle searched
2

Case l:16*cv-00512-SM Document 28 Filed 08/13/19 Page 3 of 25

Thurlow's computer and discovered twenty-four of the abovedescribed photographs of L.G. in a blue bathing suit.

Daigle

went to the police with the photographs she had found, and
officers went to the Thurlow/Daigle residence to investigate.
The police arrested Thurlow on unrelated charges, and
confiscated Thurlow's computer.
Later that month, in response to the discovery of the blue
bathing suit photographs of L.G. on Thurlow's computer, L.G. was
interviewed at the Child Advocacy Center ("CAC").

When asked

whether Thurlow had ever touched her in a sexual way, she said
that she did not know, or could not remember.1

After her CAC

interview, L.G. began seeing a counselor, who kept records of
her sessions with L.G.

In April 2010, L.G. gave a second

interview at the CAC in which she disclosed sexual contact with
Thurlow.

As a result of what L.G. said in her CAC interviews,

the State charged Thurlow with felony sexual assault and
manufacturing child sexual abuse images.
With respect to the manufacturing child sexual abuse image
charges, the indictments specified that "Thurlow took pictures
of L.G

in a blue bathing suit while there was a lewd

exhibition of L.G.'s genitals."

May 2 8

2013 Def.'s Br., at 7-

xWhile the record is not entirely clear on this point, it
appears that L.G. told the CAC interviewer that Thurlow had
taken the photographs of her in a blue bathing suit that were
found on his computer.
3

Case l:16-cv-00512~SM Document 28 Filed 08/13/19 Page 4 of 25

9, Criminal Appeal.

Thurlow was also indicted on four counts of

manufacturing child sexual abuse images of L.G. while she was
wearing a black bathing suit, but the State later nol prossed
See Trial Tr., vol. I, 44:21-22, State Criminal

those charges.
Case.

In the meantime, on February 22, 2012, Thurlow was indicted
in this court on federal child pornography charges.

See Feb.

22, 2012 Indictment, United States v. Thurlow, No. l:12-cr-027PB-1 (D.N.H.)

("Federal Criminal Case")

(ECF No. 1).

In his

federal case, he was represented by Attorney Jonathan Saxe.
Feb. 24, 2012 Order, Federal Criminal Case (ECF No. 5).

See

On

occasion, Attorney Saxe provided information and made
suggestions to the Attorney Deanna Campbell, who represented
Thurlow in the state criminal proceedings.
In June 2010, during the course of his state-court
prosecution, Thurlow moved the trial court to remove and replace
Attorney Campbell.
motion.

The trial court never ruled on Thurlow's

Thurlow was tried in state court in September 2012,

with Attorney Campbell serving as his counsel.

Thurlow was

convicted on all of the charges on which he was tried.
Sept. 19, 2012 Order, State Criminal Case.

See

The New Hampshire

Supreme Court ("NHSC") affirmed his convictions.

See Criminal

Appeal, 2014 N.H. LEXIS 32, at *2, 2014 WL 11621685, at *1 (N.H.
Feb. 26, 2014) .
4

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 5 of 25

On June 23, 2014, Thurlow filed a pro se motion for a new
trial in the Superior Court, arguing that:

(1) his trial counsel

made two errors that deprived him of his right to the effective
assistance of counsel; and (2) the trial court erred by ignoring
his reguest to fire Attorney Campbell.

See June 23, 2014 Mot.

for New Trial, State Criminal Case (Doc. No. 1-1, at 2).

The

Superior Court denied both Thurlow's motion for a new trial, see
July 6, 2016 Order, id.

("MNT Order") at 27 (Doc. No. 1-1, at

38), and a motion for reconsideration that was filed by counsel
appointed to represent Thurlow in his post-conviction
proceedings.

See July 27, 2016 Order, id.

(Doc. No. 1-1, at 47)

(denying July 15, 2016 Def.'s Mot. for Recons., id.
1, at 39)).
appeal.
2016)

(Doc. No.

The NHSC declined Thurlow's notice of discretionary

See State v. Thurlow, No. 2016-0460 (N.H. Sept. 28,

(Doc. No. 1-1, at 61).

28 U.S.C. § 2254 Standard
A federal court may grant a petition for a writ of habeas
corpus "only on the ground that [a petitioner] is in custody in
violation of the Constitution or laws or treaties of the United
States."

28 U.S.C. § 2254 (a) .

When a prisoner brings a claim

in federal court that "was adjudicated on the merits in State
court proceedings," under 28 U.S.C. § 2254(d),

5

Case l:16-cv-G0512-SM Document 28 Filed 08/13/19 Page 6 of 25

[fjederal habeas relief may not be granted . . .
unless it is shown that the earlier state court's
decision "was contrary to" federal law then clearly
established in the holdings of this Court; or that it
"involved an unreasonable application of" such law; or
that it "was based on an unreasonable determination of
the facts" in light of the record before the state
court.
Harrington v. Richter, 562 U.S. 86, 100 (2011)
omitted).

(citations

As to the distinction between decisions that are

contrary to federal law and those that involve an unreasonable
application of such law, the Supreme Court has explained:
Under the "contrary to" clause, a federal habeas court
may grant the writ if the state court arrives at a
conclusion opposite to that reached by this Court on a
question of law or if the state court decides a case
differently than this Court has on a set of materially
indistinguishable facts, Under the "unreasonable
application" clause, a federal habeas court may grant
the writ if the state court identifies the correct
governing legal principle from this Court's decisions
but unreasonably applies that principle to the facts
of the prisoner's case.
Williams v. Taylor, 529 U.S. 362, 412-13 (2000).

Discussion
Thurlow asserts three claims for relief under the Sixth
Amendment to the United States Constitution.

Thurlow claims

that he was denied the effective assistance of trial counsel in
two ways and that the trial court violated his Sixth Amendment
rights by failing to rule on his request to fire Attorney
Campbell.

6

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 7 of 25

I.

Ineffective Assistance of Counsel Claims
A.

Legal Standard

The Sixth Amendment, which is made applicable to the states
by the Fourteenth Amendment,2 guarantees a criminal defendant
"the right to the effective assistance of counsel."

United

States v. Miller, 911 F.3d 638, 641 (1st Cir. 2018)

(quoting

Strickland v. Washington, 466 U.S. 668, 686 (1984)).

To assert

an ineffective assistance of counsel claim, "[ffirst, the
defendant must show that counsel's performance was deficient,"
and "[sjecond, the defendant must show that the deficient
performance prejudiced the defense."

Strickland, 466 U.S. at

687 .
To satisfy the first part of the inquiry, the so-called
performance prong, Thurlow must show that Attorney
Campbell's representation was "outside the wide range of
professionally competent assistance."

Id. at 690.

To satisfy

the prejudice prong, Thurlow must show "that 'there is a
reasonable probability that, but for [Attorney Campbell]'s
unprofessional errors, the result of the proceeding would have
been different.
2018)

/ rr

Rivera v. Thompson, 879 F.3d 7, 12 (1st Cir.

(quoting Strickland, 466 U.S. at 688).

2See Walker v. Medeiros, 911 F.3d 629, 631 n.l (1st Cir.
2018) .
7

Case 1; 16-cv-G0512~SM Document 28 Filed 08/13/19 Page 8 of 25

When reviewing an ineffective assistance claim asserted in
a § 2254 petition, the court must apply a "doubly deferential"
standard of review, which requires the petitioner "to show that
counsel's performance was objectively unreasonable and that no
reasonable jurist could come to the . . . conclusion the state
court drew [that counsel's performance was reasonable]."
v. Spencer, 871 F.3d 117, 131 (1st Cir. 2017)
original)

Lucien

(emphasis in the

(citing Knowles v. Mirzayance, 556 U.S. Ill, 123

(2009)); see also Rivera, 879 F.3d at 12.

This

doubly

deferential standard of review [which] gives both the state
court and the defense attorney the benefit of the doubt ... is
an extremely difficult standard to meet.
824 F.3d 187, 196 (1st Cir. 2016)

B.

r //

Jaynes v. Mitchell,

(citation omitted).

Claim 1 - Testimony of Damon Carroll

In Claim 1, Thurlow asserts that he is being incarcerated
in violation of his right to the effective assistance of counsel
because Attorney Campbell "failed to interview, or call at
trial, a witness, Damon Carroll, who [she] knew to possess
exculpatory evidence to which Carroll would testify at trial."
Feb. 1, 2017 Order (Doc. No. _3) , at 1.

Here, as in his motion

for new trial filed in the trial court, Thurlow asserts that
Attorney Saxe told Attorney Campbell that a witness, Damon
Carroll, could testify that "[Carroll] had accidentally walked
8

„

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 9 of 25

in on L.G.'s brother [A.G.] taking pictures of [L.G.] in a
bathing suit."

Oct. 21, 2016 Mot. for New Trial, at 2, State

Criminal Case (Doc. No. 1-1, at 3).

The Superior Court held an

evidentiary hearing on Thurlow's motion for a new trial, at
which Attorney Saxe testified as follows:
[T]he Defendant and Mr. Carroll had been out for a
motorcycle ride. They returned to the
[Thurlow/Daigle] residence and they saw kind of a
sketchy situation involving the two children where the
male child had a camera and the female child was in, I
think, a black bathing suit. There was a couple
different suits. I can't remember which one.
Apr. 26, 2016 Mot. Hr'g Tr. 18:12-17, State Criminal Case.

In

Thurlow's view, "Mr. Carroll's information would have assisted
the defense in establishing that someone other than [Thurlow]
may have taken the pictures found on the home computer."

Oct.

21, 2016 Mot. for New Trial, at 2, State Criminal Case (Doc. No.
1-1, at 3.

Thurlow argues that, had Carroll so testified, his

testimony would have been compelling evidence that Thurlow did
not take any pictures of L.G. in a bathing suit.

Therefore,

Thurlow further reasons, his trial counsel would have been able
to make a stronger argument that Thurlow was not guilty of
sexually assaulting L.G.

On that basis, Thurlow claims that

Attorney Campbell should have done more to ensure Mr. Carroll's
appearance and testimony at Thurlow's trial.
Attorney Campbell Attorney Campbell gave a deposition in
which she explained that she did not take additional action to
9

Case l:16-cv-00512~SM Document 28 Filed 08/13/19 Page 10 of 25

ensures Mr. Carroll's appearance and testimony.
Campbell stated at her deposition that:
Carroll once by telephone;

Attorney

(1) she spoke with

(2) she attempted to follow up with

him repeatedly, but he did not return any of her subsequent
telephone calls; and (3) she did not take more aggressive steps
to contact Carroll because she believed he did want to talk with
her.
In its order denying Thurlow's motion for a new trial, the
Superior Court ruled that Thurlow had failed to satisfy the
performance prong of his ineffective assistance claim concerning
Attorney Campbell's failure to call Carroll as a witness at
Thurlow's trial, and that, even if Thurlow had established
deficient performance, he had not satisfied the prejudice prong.
Because the NHSC declined to review the Superior Court's order
denying Thurlow's motion for a new trial, the Superior Court
order was

M *

the last reasoned decision' issued by the [state

courts]," and thus this court

look[s] through to /

n

that

decision in determining whether Thurlow has satisfied the § 2254
standard as to the question of whether Attorney Campbell's
failure to call Carroll as a witness amounted to the ineffective
assistance of counsel.
Cir. 2016)

Moore v. Dickhaut, 842 F.3d 97, 100 (1st

(citation omitted).

Therefore, the question before

this court is whether the Superior Court's
Strickland standard was unreasonable,
10

t ft

application of the

in its order denying

Case l:16-cv-0G512-SM Document 28 Filed 08/13/19 Page 11 of 25

Thurlow's motion for a new trial.
724, 736 (1st Cir. 2014)

Hensley v. Roden, 755 F.3d

(quoting Harrington, 562 U.S. at 101).

Judge Wageling did not unreasonably apply either the performance
prong or the prejudice prong of the Strickland standard.

A.

Performance

Thurlow claims that the Superior Court unreasonably applied
the performance prong of the Strickland standard by ruling that
Attorney Campbell did not step "outside the wide range of
professionally competent assistance," Miller, 911 F. 3d at 641,
in deciding not to put Carroll on the witness stand at Thurlow's
trial.

With regard to calling witnesses at trial, >\ * [t] he

decision whether to call a particular witness is almost always
strategic.

t //

Hensley, 755 F.3d at 737 (citation omitted).

"[S]trategic choices made after thorough investigation of law
and facts relevant to plausible options are virtually
unchallengeable."

Strickland, 466 U.S. at 690.

In evaluating the performance prong of the Strickland
analysis here, the Superior Court noted the wide latitude that
attorneys have when making strategic decisions, and then stated
that "Attorney Campbell's decision not to aggressively pursue a
reluctant potential witness is exactly the type of strategic
decision that must be 'afford[ed] a high degree of deference.
MNT Order at 8 (Doc. No. 1-1, at 19)
11

(citation omitted).

The

t tr

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 12 of 25

Superior Court further found that "a reasonable attorney would
be concerned that Carroll's refusal to return messages meant
that he was not interested in providing favorable testimony to
the defense."

Id. at 8-9 (Doc. No. 1-1, at 19-20) .

Furthermore, Attorney. Campbell provided an explanation for her
decisions concerning Carroll which the Superior Court accepted,
and that easily survive the doubly deferential standard that
this court must apply when reviewing that court's application of
Strickland's performance prong to Attorney Campbell's strategic
The court finds there is no basis for rejecting the

decisions.

Superior Court's determination that Thurlow failed to establish
that Attorney Campbell's performance was deficient, and
Thurlow's claim so stating may be denied on that basis.

B.

Prejudice

Even if the Superior Court had erred in its application of
the Strickland performance prong as to Claim 1, however, Thurlow
has not shown that that court unreasonably applied the prejudice
prong.
To succeed on the prejudice prong, it is not enough
for [a defendant] to show that the errors had some
conceivable effect on the outcome, but he is also not
required to prove that the errors were more likely
than not to have affected the verdict. Instead, [a]
reasonable probability is one sufficient to undermine
confidence in the outcome. In essence, the prejudice
inquiry is focused on the fundamental fairness of the
proceeding.
12

Case l:16~cv-00512~SM Document 28 Filed 08/13/19 Page 13 of 25

Rivera, 879 F.3d at 12 (internal quotation marks and citations
omitted).
In deciding that Thurlow had not established the prejudice
prong of the Strickland standard, the Superior Court stated:
Even if the Court assumes [that Attorney Campbell
found Carroll, that Carroll cooperated with the
defense, and credibly testified consistently with
Attorney Saxe's representations, Thurlow] still cannot
prevail on his ineffective assistance claim because
Carroll's testimony would not have changed the outcome
of the trial. On the contrary, it may have increased
Defendant's likelihood of conviction by opening the
door to otherwise inadmissible propensity evidence.
MNT Order at 9 (Doc. No. 1-1, at 20).
As for the unhelpfulness of Carroll's testimony, the
Superior Court explained that while Carroll would have testified
that he saw A.G. take pictures of L.G. in a black bathing suit,
Thurlow was convicted of taking lewd photographs of L.G. while
she was wearing a blue bathing suit.

Evidence that someone

other than Thurlow took pictures of L.G. in a black bathing suit
does little if anything to exculpate Thurlow from charges that
he took photographs of her in a blue one.
As for the potentially damaging effects of Carroll's
testimony, the Superior Court noted that:

(1) Carroll testified

to seeing A.G. take pictures of L.G. in a black bathing suit;
(2) the State nol prossed the four indictments charging Thurlow
with taking photographs of L.G. in a black bathing suit; and (3)

13

Case l:16-ev-00512-SIV! Document 28 Filed 08/13/19 Page 14 of 25

Attorney Campbell successfully moved to keep the jury from
seeing the photographs of L.G. in a black bathing suit which
were found on Thurlow's computer.
Carroll's testimony relates solely to charges which
the State nolle prossed before trial and which
Attorney Campbell successfully kept the jury from
learning about. Had Carroll testified at trial, his
testimony would have introduced this otherwise
inadmissible evidence to the jury. In effect, the
jury would have learned that Defendant had two sets of
inappropriate pictures of the victim on his computer,
only one of which could potentially be explained by
Carroll's testimony, if the jury found him credible.
In sum, Carroll's testimony would have hurt, not
helped, Defendant, and thus he cannot demonstrate any
prejudice resulting from Attorney Campbell's failure
to pursue Campbell as a defense witness.
MNT Order at 10 (Doc. No. 1-1, at 21) .

In other words, the

Superior Court found that Carroll's testimony concerning the
photographs of L.G. in a black bathing suit would have been, at
best, a double-edged sword, and that Attorney Campbell was
appropriately concerned with mitigating the potential for such
testimony to prejudice Thurlow's defense.
Thurlow asserts that:

(1) the rationale the Superior Court

relied on "was never articulated or advanced by trial counsel in
her deposition or at any point in the proceedings," Mar. 14,
2019 Pet'r's Mem. of Law (Doc. No. 25-1, at 8); and (2) that the
Superior Court's "ruling was 'based on an unreasonable
determination of the facts in light of the evidence presented in
(quoting Teti v. Bender, 507

the state court proceeding," id.

14

Case l:16-cv-0Q512-SM Document 28 Filed 08/13/19 Page 15 of 25

F.3d 50, 56 (1st Cir. 2007); citing 28 U.S.C. § 2254(d)(2)).
Thurlow identifies no authority, however, and the court is aware
of none, for the proposition that when assessing the degree of
prejudice that resulted from Attorney Campbell's litigation
strategy, the Superior Court was limited to theories that
Attorney Campbell advanced in her deposition, or that the
Superior Court was limited to Attorney Campbell's testimony in
determining the facts upon which to rest its decision.
Lastly, Thurlow claims that the absence of Carroll's
testimony was a serious enough evidentiary defect to undermine
confidence in the jury's verdict.

First, evidence that A.G.

took pictures of L.G. in a black bathing suit is weak evidence
that Thurlow did not take photographs of her in a blue bathing
suit, or that Thurlow did not sexually assault L.G.

Next, as

explained above, it is not the province of this court to make
its own finding as to whether Attorney Campbell's representation
was ineffective under the Strickland standard.

The question

before this court is whether the Superior Court rendered a
decision that was contrary to or an unreasonable application of
Strickland when that court ruled that Attorney Campbell did not
provide ineffective assistance of counsel to Thurlow.

As

already explained, the Superior Court did not unreasonably apply
the Strickland standard in making the ruling Thurlow challenges
here through Claim 1.
15

.

II.

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 16 of 25

Claim 2

L.G.'s Mental Health Records

Beginning in July 2008, L.G. saw a counselor for about a
year and a half.

At some point, Attorney Saxe saw some of

L.G.'s counseling records, told Attorney Campbell that he had
seen them, and suggested to Attorney Campbell that those records
might be useful to her defense of Thurlow in state court.
Attorney Campbell, however, did not try to obtain or examine
L.G.'s counseling records.

Thurlow's second ineffective

assistance claim is based on Attorney Campbell's purported
"fail[ure] to investigate or obtain exculpatory mental health
records of [L.G.], which [Attorney Campbell] knew to exist and
to be exculpatory."

Feb. 1, 2017 Order (Doc. No. 3, at 1-2).

In its order denying Thurlow's motion for a new trial, the
Superior Court considered Thurlow's claims that L.G.'s
counseling records would have provided Attorney Campbell with
evidence concerning:

(1) L.G.'s motive to fabricate a story that

Thurlow had abused her;

(2) Thurlow's lack of opportunity to

engage in the conduct underlying his criminal charges; and (3)
the possibility that L.G. had based her fabricated charges
against Thurlow on pieces of internet fiction referred to as
"lemons."

See MNT Order at 14, 16, 18-19 (Doc. No. 1-1, at 25,

27, 29-30).

16

Case 1:16“CV-00512-SM Document 28 Filed 08/13/19 Page 17 of 25

The Superior Court, in the MNT Order, ruled that Thurlow's
right to the effective assistance of counsel was not violated by
Attorney Campbell's decision not to obtain and review L.G.'s
counseling records.

In so ruling, the court bypassed the

performance prong of the Strickland standard and determined that
Thurlow had failed to establish that he had been prejudiced by
Attorney Campbell's failure to get the counseling records,
addressing each of Thurlow's arguments.

A.

Motive to Lie

In its order denying Thurlow's motion for new trial, the
Superior Court described the first part of Claim 2 as follows:
[Thurlow] contends that reviewing counseling records
would have revealed that, during a therapy session
involving the victim's mother, the victim learned that
[Thurlow] had moved back in with her mother.
[Thurlow] asserts that this session occurred shortly
before the second CAC interview in April 2010, during
which the victim first disclosed [Thurlow]'s sexual
abuse to law enforcement, According to [Thurlow], the
counseling records would have shown that the victim
had a motive to lie in reporting the abuse;
specifically, she wanted to move back to New Hampshire
with her mother and she was upset that [Thurlow] was
living with her mother again.
MNT Order at 14 (Doc. No. 1-1, at 25) .
As to L.G.'s motive to lie, the Superior Court ruled that
Thurlow was not prejudiced by his attorney's failure to obtain
L.G.'s counseling records because those records show that L.G.
disclosed Thurlow's conduct to her counselor in June 2009, two
17

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 18 of 25

months before L.G. learned anything about Thurlow moving back in
with Daigle, the knowledge Thurlow claims gave L.G. a motive to
fabricate sexual abuse allegations against him.

Thurlow's

instant petition fails to demonstrate why the Superior Court's
factual findings are unreasonable in light of the record of this
case.
The Superior Court found that, in light of those facts,
Thurlow was not prejudiced by Attorney Campbell's failure to
obtain L.G.'s counseling records to the extent they revealed the
date that L.G. discovered that Thurlow and Daigle were living
together.

Thurlow fails to demonstrate how the Superior

Court's determination regarding prejudice was an unreasonable
application of Strickland.

Accordingly, Thurlow's Claim 2

fails, to the extent it relies on L.G.'s counseling records
containing a motive to lie.

B.

Lack of Opportunity

In the second part of Claim 2, Thurlow alleges that because
Attorney Campbell did not obtain L.G.'s counseling record, he
was denied the use of a letter written by Daigle, contained
within those records, which Thurlow claims demonstrated Daigle's
near-constant presence in the house where and when L.G. alleged
the sexual assaults took place.

Accordingly, Thurlow argues

18

Case 1.16-CV-00512-SM Document 28 Filed 08/13/19 Page 19 of 25

that he was denied evidence that he lacked the opportunity to
engage in the conduct underlying his sexual assault charges.
At trial, on direct examination, Daigle offered the
following testimony about how much time she spent at home:
I was home and I tried to be home all the time, as
much as I could.

I think I was home, I tried. The work I did was
around the kids' schedules, so I did try to be home
when the little kids or the big kids were off the bus.
There were days I worked late, There were times I ran
a kid, play dates, and picked up, dropped off, after­
school program I had to pick up once in a while, But
most of the time, I was home because I liked being
home.
Trial Tr. vol. II, 248:23-249:11.

In addition, the following

exchange took place between the prosecutor and Daigle:
[Prosecutor:] And would you go out to see
various friends or any friends? Any time you could be
out of the house visiting friends?
[Daigle:] No. The most I went out usually was
to go to the grocery store or go to church. And most
of the time, the kids would come with me for church or
at the Wednesday night youth group stuff.
Id. at 250:5-11.

On cross-examination, Attorney Campbell

elicited further testimony in a similar vein.

See id. at

303:20-307:11.
In its order denying Thurlow's motion for a new trial, the
Superior Court states that Thurlow "argued that the trial
testimony of the victim's mother was different from what she

19

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 20 of 25

said in the letter about [Thurlow]'s lack of opportunity, and
thus the letter would have assisted in impeaching her
testimony."

MNT Order at 16 (Doc. No. 1-1, at 27).

The

Superior Court found, however, that "obtaining the letter in the
counseling records would not have changed the outcome of the
trial because (1) Attorney Campbell knew this information anyway
and (2) the victim's mother testified to the same information
contained in the letter."

Id. at 18 (Doc. No. 1-1, at 29) .

Thurlow does not say, and the court cannot discern, what
specific testimony Thurlow sought to impeach with the letter, or
how the testimony could have been impeached by that letter, as
Daigle's testimony was both favorable to Thurlow's lack-ofopportunity defense and was not inconsistent with what Daigle
wrote in the letter.

Thurlow has therefore failed to

demonstrate that the Superior Court either unreasonably
determined the facts in the record, or unreasonably applied the
Strickland standard to find that no prejudice arose from
Attorney Campbell's failure to obtain Daigle's letter from
L.G.'s counseling records.

C.

"Lemons"

In the MNT Order, the Superior Court described the third
part of Claim 2 as follows:

20

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 21 of 25

[Thurlow] argues that information contained in the
counseling records would have allowed the defense to
"extensive[ly]" cross-examine the victim about her
interest in sexually explicit fictional stories called
"lemons." According to [Thurlow], these lemons "are
clearly relevant to establish [L.G.'s] knowledge and
capacity for graphic sexual description, and also
suggest a curiosity about sexual transgression .... //
[Thurlow] also asserts that he could have used the
"lemon" theme, in conjunction with some of the
counseling records, to argue to the jury that the
victim had romantic feelings for him and came up with
a "lemon" expressing those fantasies, which spun out
of control and resulted in the sexual abuse charges.
MNT Order at 18-19 (Doc. No. 1-1, at 29-30)
record omitted).

(citation to the

The Superior Court ruled that Thurlow was not

prejudiced by his counsel's failure to obtain L.G.'s counseling
records because "Attorney Campbell used the 'lemon' theory to
explain the victim's basis of knowledge, just as [Thurlow]
suggests she should have done [and]

[n]othing in [L.G.]'s

counseling records would have assisted trial counsel in further
developing this strategy or using it to greater effect."

Id. at

20 (Doc. No. 1-1, at 31).
The court has reviewed all of L.G.'s counseling records.
There is nothing in those records that Attorney Campbell could
have used to make a more persuasive argument than she did using
the lemon theme.

Thurlow has therefore failed to demonstrate

that the Superior Court either unreasonably determined the facts
in the record or unreasonably applied the Strickland standard to
those facts to find that no prejudice accrued to Thurlow from

21

Case l:16-cv-00512-SM Document 28 Filed 08/13/19 Page 22 of 25

Attorney Campbell's failure to obtain the counseling records to
obtain further information about "lemons."

IV.

Claim 3
In Claim 3, Thurlow asserts that his Sixth Amendment rights

were violated "when the trial court abused its discretion by
failing to inquire into [his] timely request to fire his counsel
due to irreconcilable differences."
Pet.

(Doc. No. 6), at 3.

Mar. 22, 2017 Mot. to Amend

Respondent argues that he is entitled

to summary judgment on Claim 3 because it has been procedurally
Thurlow does not address respondent's procedural

defaulted.

default argument.
"[A] federal court may not review federal claims that were
procedurally defaulted in state court—that is, claims that the
state court denied based on an adequate and independent state
procedural rule," Davila v. Davis, 137 S. Ct. 2058, 2064 (2017),
if that state procedural rule "is both firmly established and
regularly followed."
2015)) .

Logan v. Gelb, 790 F.3d 65, 72 (1st Cir.

"A state prisoner may overcome the prohibition on

reviewing procedurally defaulted claims if he can show 'cause'
to excuse his failure to comply with the state procedural rule
and 'actual prejudice resulting from the alleged constitutional
violation.

r tf

Davila, 137 S. Ct. at 2064-65 (quoting Wainwright

v. Sykes, 433 U.S. 72, 84 (1977)).
22

Case l:16-cv-G0512-SM Document 28 Filed 08/13/19 Page 23 of 25

Here, it is undisputed that:

(1) in June 2010, Thurlow

filed a motion in which he asked the trial "court to remove and
replace [his] court appointed attorney," MNT Order at 21 (Doc.
No. 1-1, at 32); and (2) the trial court never ruled on that
motion.

However, Thurlow did not raise that issue in his direct

appeal to the NHSC.

He did raise it in his motion for a new

trial, but, in reliance on State v. Kinne, 161 N.H. 41, 44-46, 7
A.3d 1205, 1208-09 (2010), and Avery v. Cunningham, 131 N.H.
138, 143, 551 A.2d 952, 954-55 (1988), the Superior Court ruled
that Thurlow was barred from raising that issue in his motion
for a new trial because he had not raised it in his direct
appeal.

See MNT Order, at 22-23 (Doc. No. 1-1, at 33-34).

The

rule in Avery that bars collateral review of most issues not
raised on direct appeal "is 'firmly established' and 'regularly
followed' in New Hampshire."

Kepple v. Unknown Warden, N. N.H.

Corr. Facility, No. lO-cv-331-LM, 2011 U.S. Dist. LEXIS 110447,
at *33, 2011 WL 4452673, at *12 (D.N.H. Sept. 26, 2011)
(citation omitted).3

Thurlow has not addressed the respondent's

procedural-default argument, and therefore has not established
cause and prejudice for his procedural default.

Accordingly,

3The NHSC has identified certain exceptions to the Avery
rule, but none of them apply here. See Kinne, 161 N.H. at 45-46
(noting that Avery does not bar collateral attacks asserting
ineffective assistance of counsel or collateral attacks on
purportedly illegal sentences).
23

Case :l:16-cv-0D512-SM Document 28 Filed 08/13/19 Page 24 of 25

Claim 3 has been procedurally defaulted, which entitles the
respondent to judgment as a matter of law on that claim.

V.

Certificate of Appealability
The Rules Governing Section 2254 Proceedings ("§ 2254

Rules") require the court to "issue or deny a certificate of
appealability ["COA"] when it enters a final order adverse to
the party" in a § 2254 action.

§ 2254 Rule 11 (a) .

For the

reasons set forth above, the district judge should find that
Thurlow has not made a substantial showing of the denial of a
constitutional right, and decline to issue a certificate of
appealability.

See 28 U.S.C. § 2253(c); § 2254 Rule 11(a).

Conclusion
For the reasons described above, the district judge should
grant respondent's motion for summary judgment (Doc. No. 24),
deny petitioner's motion for summary judgment (Doc. No. 26), and
decline to issue a certificate of appealability.4

Any objection

to this Report and Recommendation must be filed within 14 days
of receipt of this notice.

See Fed. R. Civ. P. 72(b)(2).

The

4Should the district judge accept this recommendation and
decline to issue a certificate of appealability, Thurlow may
seek such a certificate from the court of appeals under Federal
Rule of Appellate Procedure 22 (b). See Rule § 2254 Rule 11; 18
U.S.C. § 2253(c).
24

, ?

Case l:16-cv-0Q512-SM Document 28 Filed 08/13/19 Page 25 of 25

1

14-day period may be extended upon motion.

Failure to file a

specific written objection to the Report and Recommendation
within the specified time waives the right to appeal the
district court's order.

See Santos-Santos v. Torres-Centeno,

842 F.3d 163, 168 (1st Cir. 2016).

United States Magistrate Judge

August 13, 2019
cc:

John P. Newman, Esg.
Elizabeth C. Woodcock, Esq.

25

®fje jitfate of ^eftt ^ampstftre

r

SUPERIOR COURT

ROCKINGHAM COUNTY
STATE OF NEW HAMPSHIRE
v.
KEVIN THURLOW
Docket No. 218-2010-CR-01686

ORDER ON DEFENDANT’S MOTION FOR NEW TRIAL
Defendant Kevin Thurlow was convicted of six counts of aggravated felonious
sexual assault and three counts of manufacturing child sexual abuse images on
September 19,2012, after a two-day jury trial before this Court. The New Hampshire
Supreme Court subsequently affirmed these convictions by 3JX panel. See Stateof
New Hampshire v. Kevin Thurlow, No. 2012-0935 (N.H . Feb. 26, 2014) (Doc. 55).
Defendant now

moves for a new trial based on ineffective assistance of counsel. The

State objects. On April 26, 2016, the Court held a hearing on Defendant’s motion. For
the following reasons, Defendant’s motion is DENIED.
Background
Facts
I.
The following facts were presented to the jury or are otherwise supported by the
record.

Defendant married the victim's mother when the victim was in kindergarten.

See Trial Tr. Vol II

146:6-8, Sept. 18, 2012. Over the next few years, Defendant

engaged in grooming behavior and then began sexually abusing the victim. See
Thurlow. No. 2012-0935 (3JX op. at 1-2).
assaults thusly:

The Supreme Court summarized the sexual

T

Bv the time the victim was in the second or third grade, she

n

iisss-ssr
bare penis. Eventually, the victim testified, she would give [the
defendant] hand jobs regularly,” and the defendant would have her
remove her clothing so that he could touch her breasts and genitalia with
his hands, mouth, and penis.

Id. at 2. Defendant also took pictures of the victim posing in different bathing
suits with her genitalia exposed, which usually led to sexual contact. See Trial
Tr. Vol! I, 35:4-17, Sept. 17, 2012; see also Trial Tr. Vol II, 192:7-194:12.
The abuse first came to light in the summer of 2008 when the victim’s mother
discovered explicit pictures of her daughter in hidden files on Defendant’s computer.
See Trial Tr. Vol. II

260:15-265:14. In these pictures, the victim was wearing a blue

bathing suit while exposing her genitals to the camera. See Trial Tr. Vol. I, 36:2^6. The

C

victim's mother reported the pictures to the police, who executed a search warrant at
Defendant's house the next day. jd. at 49:8-16. During the course of that search, the
police

uncovered a marijuana growing operation, and Defendant was arrested on drug

charges.1 See id. at 49:1-19.
At the time the photographs were discovered, the victim was staying with her
biological father in Vermont for the summer. See Trial Tr. Vol. II, 144:1 25, 171:2 8.
On July 22, 2008,

the victim was brought to the Child Advocacy Center (CAC) under the

guise that she was going to be interviewed about the drug investigation . See id. at
175:13-176:21.

When asked if Defendant had ever touched her inappropriately, she

responded at various points with “I don’t know,” “I don’t remember,” and “no.” jd. at
178:6. The victim

u

testified at trial that she did not disclose the abuse during this

1 The jury was not privy to information about Defendant’s drug arrest.

2

1

interview because she did not want to get Defendant in trouble. Id. at 178:7-8.

r '

After the July 2008 interview, the victim did not return to her mother’s house and
instead began living full-time with her father in Vermont . See id. at 181:2-13. She also
began seeing a therapist
Id. at 181:12

In April 2010, the victim was interviewed again at the CAC,

at which time she disclosed Defendant’s sexual abuse to law

enforcement, id. at 186:19-187:8.
II.

Procedural History

Defendant was arrested in May 201.0 based on the victim’s disclosures at the
second CAC interview.

Attorney Deanna Campbell of the New Hampshire Public

Defender (NHPD) was appointed to represent Defendant in July 2010. See
Appearance (Doc. 3). Defendant was
aggrava

L

indicted shortly thereafter on several counts of

ted felonious sexual assault and manufacturing child sexual abuse images.

Defe

ndant did not go to trial on these charges until more than two years later.

ostly attributable to the parallel federal investigation that arose from
This delay was m
the victim's disclosures. For example, in January 2011, the parties agreed to continue
trial because the State planned to refer the manufacturing charges to the United States
Attorney’s Office for prosecution. See Agreement (Doc. .12) Trial was continued again
in May 2011 because the federal investigation was still ongoing. See Assented to Mot.
Continue

3-4 (Doc. 14). Attorney Jonathan Saxe of the Federal Defender's Office

appointed to represent Defendant in October 2011. See Saxe Aff. H 2, Mar. 4,
was
2015.2 By May 2012, Defendant had been indicted on federal manufacturing charges.
See Mot. Continue Trial U 2 (Doc. 20)

. Despite the Court granting two additional

continuances to facilitate the resolution of the federal charges first, see id.; Agreement
2 Attorney Saxe’s affidav

l^tarhed to Defendant's Motion for Discoveryto Cases Review (Doc. 68).
3

(Doc. 15), the federal trial was ultimately continued, and Defendant’s trial on the state

r'

charges took place in September 2012, see Mot. in Limine: 404(b) Evid. H 1 (Doc. 27).
Both the victim and her mother testified for the prosecution at trial, as did the
police officer who executed the search warrant and collected evidence . Defendant was
convicted of all charges on September 19,2012. The Court (WageHng, J.) sentenced
him to an

aggregate prison term of 43 to 86 years, to be served stand committed , with

additional suspended time. See generally Docs. 38-«. The federal charges were later
dismissed because Defendant had been convicted in state court.
After the New
filedagrose

Hampshire Supreme Court affirmed his convictions, Defendant

motion for new trial in October 2014. See Mot. New Trial (Doc. 59). Th^

inted Attorney Kelly Dowd to represent Defendant because his
Court subsequently appoin
motion alleged ineffective assistance of counsel by Attorney Campbell a member of the
NHPD. See Order Appointment Counsel (Doc. 63) ; Notification Eligibility (Doc. 64); cf.
state v. Veale, 154 N.H

730, 734-35 (2007) (holding NHPD is automatically

presenting defendant in appeal involving claim of ineffective
disqualified from re
assistance of counsel where said counsel was a public defender). Attorney Dowd did
not file a supplemental motion for new trial and instead relied on the arguments
contained in Defendant’s pro se motion. See Order on Status Conference (Doc. 67).
The Court partially granted Attorney Dowd's motion for discovery of the victim's
counseling records by ordering that certain records be produced for in gampra review.
See Order Def.'s Mot. Disc./lfl Camera Review 3 (Doc. 68). The Court then disclosed a
portion of these records, subject to a protective order, after finding that they contained
"potentially relevant and/or potentially exculpatory information

See Protective Order

(Under Seal) (Apr. 9, 20.15) (Doc.,73); Protective Order (Under Seal) (Feb . 26, 2016)

r

(Doc. 91).
Standard of Review
Generally, a motion for new trial may be granted “when through accident,
mistake or misfortune justice has not been done and a further hearing would be
equitable.” RSA 526:1.

“The State and Federal Constitutions guarantee a criminal

defendant reasonably competent assistance of counsel

State v. Eschenbrenner, 164

N.H. 532, 539 (2013); accord N.H. CONST, pt. 1, art. 15; U.S. CONST, amend. VI.
When a defendant seeks a new trial based on ineffective assistances counsel, he
bears the burden of proving “that his trial counsel's conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied on as having
produced a just result.” Fschenbrenner, 164 N.H. at 539 (quoting State v Fecteau, 140
“Because the standard for determining whether a defendant has
N.H. 498, 500 (1995))
received ineffective assistance of counsel is the same under both constitutions, ” the
Court evaluates

Defendant's claim under the State Constitution, citing to federal cases

for guidance only. state v Whittaker, 158 N.H. 762, 768 (2009).
cessful claim for ineffective assistance of counsel under the
“To assert a sue
defendant must show, first, that counsel's representation was
State Constitution, a
constitutionally deficient and, second, that counsel's deficient performance actually
prejudiced the outcome of the case.

» Fgrhpnbrenner. 164 N.H. at 539. “To meet the

first prong of this test, the defendant

'must show that counsel’s representation fell below

an objective standard of reasonableness.

Whittaker, 158 N.H. at 768 (quoting

„ Washington. 466 U.S. 668,688 (1984)). In evaluating whether counsel's

5

performance was reasonable, the Court “affordfs] a high degree of deference to the

c

strategic decisions of trial counsel, bearing in mind the limitless variety of strategic and
tactical decisions that counsel must make.” State v. Keppje, 155 N.H. 267, 270 (2007).
“‘[T]he

defendant must overcome the presumption that, under the circumstances, the

challenged action might be considered sound trial strategy.

Whittaker, 158 N.H. at 769

(quoting Strickland. 466 U.S. at 689).
To meet the second prong of the ineffective assistance of counsel test , “the
defendant must demonstrate actual prejudice by showing that there is
is a reasonable
probability that the result of the proceeding would have been different had competent
legal representation been provided

. A reasonable probability is a probability sufficient to

undermine confidence in the outcome of the case.
40 (quotation omitted), “The

” Eschenbrenner, 164 N.H. at 539—

prejudice analysis considers the totality of the evidence

presented at trial." KeppJe, 155 N.H

at 270. Finally, if the defendant fails to meet either

prong of the test, the Court need not address the other prong. IdAnalysis
Defendant argues trial counsel provided ineffective assistance by failing to
: a potential defense witness named Damon Carroll
pursue two avenues of investigation:
and the victim’s counseling records,
failing to rule on his pi° se motion

Defendant also argues that the trial court erred by

for new counsel, which he filed while the charges

were pending on December 10, 2010
I.

The Court addresses each argument in turn.

inwpgtination of Potential Defense Witness
Defendant first argues that Attorney Campbell provided ineffective assistance of

counsel by failing to secure the testimony of an exculpatory witness, Damon Carroll.

6

n

According to Defendant, Carroll “was willing to testify that he had accidentally walked in
on [the victimj’s brother taking pictures of her in a bathing suit.... 1,3 Mot. New Trial .1fl
5. Defendant explains that this “information would have assisted the defense in
Wishing that someone other than [him] may have taken the pictures found on the
esta
home computer." ]d. Defendant offered testimony from Attorney Saxe at the April 2016
hearing, who explained that he had spoken with Carroll in preparing for the federal trial.
According to Attorney Saxe, Carroll claimed that after returning from a motorcycle ride
to Defendant's house, he observed a male child holding a camera and a female child
wearing a black bathing suit, both of whom "scurr[ied] around", when the two men entered the residence. Attorney Saxe's affidavit similarly recounts that “Carroll noted
one occasion [during whichl he had observed [the victim] in a black bathing suit
apparently posing for pictures for her brother.

L

At the April 26

Saxe Aff. H 7.

, 2016 evidentiary hearing, the parties agreed to submit a transcript

of Attorney Campbell's deposition in lieu of her live testimony. In that deposition,
Attorney Campbell explained her reasoning for not pursuing Carroll more aggressively:
based on his failure to return any of her telephone messages, "it seemed pretty obvious
that he wanted no

part<rfthis’ CampbellDep.28:5-7, July 13,2015. Attorney

Campbell noted that she knew she had the correct phone number for Carroll because
he had answered her call initially, yet he did not get in touch with her despite repeated
requests to do so' See id. at 10:15-11:1. Attorney Campbell took this to mean that
Carroll “did not want to have contact or speak with [her] or [her] office.” {d. at 24:7-8.
Defendant argues that Attorney Campbell should have been more aggressive in
3 The Court notes that Defendant did not testify at the April 26,2016 hearing and his motion does not

u

?I "is unclear°from the^ecord if these events are one in the same or different.

7

n

making con

tact with Carroll by, for example, assigning an investigator to track down his

whereabouts.

This suggestion overlooks the fact that Carroll would only be helpful to

the defense if he was willing to cooperate and confirm Defendant's story . Carroll’s
conduct would give a
and his

reasonable attorney pause about both his reliability as a witness

likelihood of cooperating if a defense investigator was sent to knock on doors

looking for him. In short

, while Attorney Campbell could have done more to physically

locate Damon Carroll, her decision must be evaluated in light of the recognition that the
tactics most likely to locate Carroll might also be the ones most likely to alienate him
and to ensure that he was unwilling to cooperate with the defense. Accordingly, the
Court declines Defendant’s invitation to second-guess this decision.
Furthermore, in the context of ineffective assistance of counsel claims,
“complaints of uncalled witnesses are not favored, because the presentation of
L ■

testimonial evidence is a matter of trial strategy, and because allegations of what a
witness would have testified are largely speculative 1 initeri States v. Cockrell, 720
p 2d 1423,1427 (5th Cir. 1983). Here, a large amount of speculation is required
because Defendant has failed to submit an affidavit from Carroll himself regarding what
he would have testified to had he been called as a defense witness at trial.
Furthermore,

Attorney Campbell’s decision to not aggressively pursue a reluctant

potential witness is exactly the type of strategic decision that must be “affordjed] a high
degree of deference.” Kepple, 155 N.H. at 270. "An attorney is not obligated to pursue
weak options when it appears,

in light of informed professional judgment, that a defense

is implausible or insubstantial. ” State v. Moussa. 164 N.H. 108, 117 (2012).
Here, a

reasonable attorney would be concerned that Carroll's refusal to return

o
8

messages meant that he was not interested in providing favorable testimony to the
defense. Indeed, there are several possible reasons why Carroll may have been
unwilling to contact Attorney Campbell, none of which would have been particularly
helpful to Defendant’s case. Accordingly, Attorney Campbell acted reasonably in
deciding to pursue other defense strategies.
Notwithstanding the foregoing conclusions, the Court assumes, in the
alternative,

that Defendant has met the deficient performance prong of the ineffective

assistance test. That is, the Court assumes that the defense found Carroll, he
eventually coope

rated with the defense, and credibly testified consistent with

Defendant’s and Attorney Saxe’s representations. Even if the Court assumes all of
these things, Defendant still cannot prevail on his ineffective assistance claim because
Carroll’s

L

testimony would not have changed the outcome of the trial . On the contrary, it

may have increased Defendant’s

likelihood of conviction by opening the door to

otherwise inadmissible propensity evidence.
Defendant was

originally indicted on seven counts of manufacturing child sexual

abuse images. See Charge ID Nos. 361401C through 361407C . Three of the counts
pertained to images in which the victim was wearing a blue bathing suit, see Charge ID
Nos. 361404C, 361405C, & 361406C, while the other four counts pertained to images in
which the victim was wearing a black bathing suit, sge Charge ID Nos. 361401C,
On the day of jury selection, the State nolle prossed
361402C, 361403C, & 361407C
the four counts relating to the black bathing suit images after determining that they did
not meet the statutory definition of sexually ex
Mot. in Limine Exclude Evid.

plicit conduct under RSA 649-A:3-b. See

Other Crimes, Wrongs or Acts for Images Involving Black

U
9

Bathing Suit 2 [hereinafter Mot. in Limine Black Bathing Suit] (Doc. 31); see also Trial

r'

Tr. Vol, I, 43:19-20, 44:18-22.
the State from

Attorney Campbell then successfully sought to preclude

mentioning the black bathing suit images at trial on the basis that these

uncharged bad acts would unfairiy prejudice Defendant, gee Mot. in Limine Black
Bathing Suitffll 2-4; Trial Tr. Vol. I, 62:12-18 (Court granting motion to exclude this
evidence); see also Trial Tr. Vol II, 81:12-17 (defense objecting to State’s renewed
istence of black bathing suit photos because this evidence would
motion to introduce exi
be -extremely prejudicial"); id. at 85:4-86:7 (Court denying renewed motion and
declining to allow State to discuss black bathing suit images)........................
Carroll’s proposed testimony relates to a single incident in which the victim's
brother allegedly took photographs of her wearing a black bathing suit. Although this

l.

Id potentially explain the tdack bathing suit images found on Defendant's
testimony cou
it would net explain the bjge bathing suit photographs displaying the victim's
computer,
genitalia that were also found on this computer, Moreover, Carroll’s testimony relates
solely to charges which the State nolle prossed before trial and which Attorney
Campbell successfully kept the jury from learning about, Had Carroll testified at trial, his
testimony would have introduced this otherwise inadmissible evidence to the jury. In
effect, the jury would have learned that Defendant had two sets of inappropriate pictures
of the victim on his computer, only one of which could potentially be explained by
Carroll’s testimony, if the jury found him credible In sum, Carroll’s testimony would
have hurt, not helped

Defendant, and thus he cannot demonstrate any prejudice

resulting from Attorney Campbell's failure to pursue Carroll as a defense witness.
same
Lastly, the Court notes that Attorney Campbell essentially made the

U
10

suggestion to the jury—that the victim’s brother took the bathing suit photographs
(

without calling Carroll as a witness. See Trial Tr. Vol. Ill, 317:4-18, Sept. 19, 2012
(suggesting victim’s brother used Defendant's computer); jd- at 378:19-23 (closing
argument) (“If [the brother] suspected something, I would think he would be here.. If [he]
saw something, don’t you think he would be there? But if [he] did something , he would
not be here.

Kevin Thurlow is not guilty.”). In other words, Attorney Campbell

em ployed this defense strategy without exposing the jury to

prejudicial information

about the black bathing suit photographs on Defendant’s computer, which would have
come out through Carroll’s testimony. Therefore, to the extent Defendant argues that
Attorne

y Campbell’s failure to investigate Carroll foreclosed his suggested strategy, the

Court rejects this argument.
The Victim’s Counseling Records

II.

Defendant argues that Attorney Campbell provided ineffective assistance of
counsel by failing to
Vermont,

obtain the victim’s counseling records from her therapist in

whom she saw between the first CAC interview in July 2008 and the second

CAC interview in April 2010. According to Defendant, these records contain information
that would have assistedthe defense in impeaching the victim and the victim's mother,
the State’s two main witnesses. See Mot. New Trial fl 6-7,10. Defendant argues that
Attorney Campbell’s decision

not to seek these records was not a reasonable trial

strategy and that he was prejudiced thereby. See jd-111112-13.
After he was appointed to represent Defendant on the federal charges, Attorney
permitted to review the victim’s counseling records, which Were in the
Saxe was
possession of the U.S. Attorney's Office at that time. See Saxe Aff. H 3. Attorney Saxe

O
11

made an agreement with federal prosecutors that he would not disclose the contents of

n

the records unless or until the federal district court reviewed them in camera and issued
a protective order. Sometime thereafter, Attorney Saxe advised Attorney Campbell
about the existence of the victim’s counseling records, see Campbell Dep. 14:16-15:5,
and suggested that she “ought to take a look at th[em],” id. at 35:22-23. Ultimately,
Attorney Campbell decided not to request the records and explained this decision to
Defendant, jd. at 17:4-9.
The parties offered slightly differing testimony concerning what Attorney Saxe
told Attorney Campbell about the counseling records. At the April 26, 2016 evidentiary
hearing, Attorney Saxe testified that although he could not remember exactly what he
told Attorney Campbell, he tried to convey to her that he had reviewed the records and
that he believed they contained useful information, without disclosing the nature of that

L

information

. According to Attorney Campbell’s deposition testimony, Attorney Saxe told

her that the counseling records contained “some interesting disclosures” from the victim.
Campbell Dep. 15:8. Attorney Campbell took this to mean that “there were some
inconsistencies.” id- at 36:22-37:1. She also learned that the victim had not disclosed
the sexual abuse to her therapist right away. See id. at 15:12-16:6.
Attorney Campbell also recalled Attorney Saxe advising her that the counseling
records contained a letter from the victim’s mother, id. at 15:9-10, who was not
“immediately receptive or responsive to [the victimj’s disclosures,” jd. at 16:8-9. For his
part, Attorney Saxe’s recollection of this letter was that it “indicat[ed] that [the victim’s
mother] did not understand how the allegations would have been possible due to her
presence in the home and [Defendants busy work schedule. ” Saxe Aff. U 5. Attorney

U
12

n

Saxe

explained at the hearing that the victim’s mother had also relayed this specific

concern during an

interview with himself and his investigator, and that he would have

shared information from that interview with Attorney Campbell . He was unsure,
however, whether he

had mentioned the existence of the letter to Attorney Campbell.

At the April 2016 hearing , Attorney Saxe made further representations to the
contents of the victim’s counseling records, and of his
Court about his memory of the
of Defendant's case more generally. For example, he learned through the
investigation
counseling session with the victim towards the
victim’s mother that she had attended a
end of the year-and-a-half pe

riod during which the victim was in counseling in Vermont

before the second CAC interview. According to Attorney Saxe the victim learned
during that session that her mother had move

L

d back in with Defendant, which upset

Attorney Saxe believed that this discovery occurred
both the victim and her father.
in time to the victim's second CAC interview, during which she disclosed
close
extensive sexual abuse committed against her by Defendant. See Saxe Aff.fl4.
Attorney Saxe clarified, however, that the victim had disclosed this abuse to her
. He conceded that this
therapist at least several months prior to this CAC interview
timeline weakened any argument that the victim's anger at Defendant's renewed
ion with her mother prompted her to fabricate allegations of sexual abuse
cohabitation
against Defendant in the second CAC interview.
Defendant appears to argue

that much if not all of the above information is

contained in the victim's counseling records, see Mot. Disc.to Qa-ms Review TO 7,9,
and that Attorne

y Campbell would have learned this important information if she had

tried to review these records, see Mot. New Trial H 10i). Because the Court disposes of

U
13

Defendant's argument under the prejudice prong of the ineffective assistance test, it

r

need not analyze the reasonableness of Attorney Campbell's decision not to obtain the
records, and thus it does not summarize the reasons for her decision here. See
generally Campbell Dep. 17:4-18:17, 35:8-15, 39:10-11,40:20-41:9,42:12-13
(explaining reasons). Instead

, the Court finds that nothing in the counseling records

would have contributed to a different outcome at trial, even if those records had been
requested by and disclosed to Attorney Campbell.
A. Timing of Disclosure
Defendant contends that reviewing the counseling records would have revealed
that, during a therapy session involving the victim's mother, the victim learned that
Defendant had moved back in with her mother. Defendant asserts that this session
occurred shortly before the second CAC interview in April 2010, during which the victim
first disclosed Defendant's sexual abuse to law enforcement. According to Defendant,
would have shown that the victim had a motive to lie in reporting
the counseling records
the abuse; specifically, she wanted to move back to New Hampshire with her tfiother
and she was upset that Defendant was living with her mother again.
The Court reviewed the counseling records in their entirety again in light of the
arguments Defendant articulated at the hearing During this review, the Court found
sponsive to Defendant’s argument regarding the timing of
additional entries re
disclosure, which it discusses below. In conjunction with the present order, the Court
will issue another protective order disclosing these additional documents to the parties.
Although the victim did not disclose Defendant's sexual abuse to law
enforcement until her second CAC interview in April 2010, she disclosed it to her

U
14

therapist in June 2009. See Apr. 26, 2016 Hr’g, Def.’s Ex. A (under seal) (copy of

n

cou nseling records disclosed as of hearing date). A previously undisclosed entry in the
counseling records indicates that the victim became aware in August 2009 that her
mother was having contact with Defendant. On February 15, 2010, the victim’s mother
attended a counseling session with the victim and her therapist, during which the victim
learned that Defendant had moved back into her mother’s residence. While Defendant
argues this provided the victim with a motive to lie, the victim’s disclosure of the sexual
abuse to her therapist predated any knowledge of Defendant moving back in with her
mother. Accordingly, the counseling records do not support Defendant’s argument
concerning the victim’s motive to fabricate the abuse allegations.
Even if Defendant contends that this argument still should have been made at
trial, his position overlooks the damage this argument would have done to his defense.
Arguing that the victim gained a motive to lie about the abuse in February 2010-or
even in August 2009—would have allowed the State to introduce the victim’s 2009
disclosures to her therapist as prior consistent statements. See State v. You_na. 144
N.H.477, 482 (1999) (noting that a witness’s prior consistent statement is admissible as
substantive evidence, under New Hampshire Rule of Evidence 801(d)(1)(B) , “if it
predates the motive to fabricate that it is purported to rebut”). Attorney Campbell
understood, and the counseling records confirm, that the victim disclosed Defendant s
sexual abuse to her therapist in 2009, several months before the joint counseling
session with her mother, when the motive to lie purportedly arose. See Campbell Dep.
16:5-6. Attorney Campbell was careful to tailor her defense strategy so as not to open
the door to testimony about the victim’s prior disclosures. §ee Trial Tr. Vol II, 129:2-12.

15

In sum, the counseling records do not contain the information Defendant

r ■

contends would have changed the outcome of his trial as they do.not support his theory
about the victim’s motive to lie in reporting the abuse. Accordingly, he is unable to
demonstrate prejudice in this respect.
B. I fttter from the Victim’s Mother
Defendant also argues that the letter from the victim’s mother contained in the
counseling records, if disclosed to the defense before trial, would have been used to
show that Defendant tacked opportunity to commit the pattern of sexual abuse alleged
by the victim.

At the hearing, Defendant argued that the trial testimony of the victim’s

mother was different from what she said in the letter about Defendant’s lack of
opportunity, and thus the letter would have assisted in impeaching her testimony.
While their memories differ on whether Attorney Saxe told Attorney Campbell

1

about the existence of the letter, Attorney Saxe testified that he learned the same
information contained in the letter by interviewing the victim's mother directly, and that
he would have shared this information with Attorney Campbell. Accordingly, based on
the evidence presented to the Court at the April 26,2016 hearing, Attorney Campbell
received the same information about Defendant's lack of opportunity to commit the
charged crimes without requesting the counseling records . In other words, the
counseling records would not have added anything new. Compare Whittaker. 158 N.H.
at 774 (holding that defense counsel’s decision not to consult with accident
reconstruction expert prevented defendant from learning about availability of
unavoidable accident defense).
Moreover, the Court disagrees with Defendant’s reading of the trial transcript on

O
16

n

this issue. On

direct examination, the victim’s mother testified that “most of the time,

[she] was home” with the children
prosecutor if she ever left the
The

. Trial Tr.Vot. II, 249:10-12. When asked by the

house to visit friends, the victim’s mother responded: “No.

most I went out usually was to go to the grocery store or go to church . And most of

the time,

the kids would come with me for church or at the Wednesday night youth

group stuff.” id. at 250:8-11
consistent with

Contrary to Defendant’s contention, this testimony is

not contrary to, the contents of the letter. See Apr. 26, 2016 Hr g, Def. s

Ex. A, at 1 (under seal) (letter) (“I was home all the time.. .. I rarely went out, and if I
did,

it was to a church Bible study or ladies, church something . I couldn’t figure out

when he had opportunity.”)

.5 Accordingly, Attorney Campbell did not need to impeach

the victim's mother on this point because the witness provided favorable testimony
regarding Defendant's lack of opportunity on direct examination.
«...

examination, Attorney Campbell elicited several additional
Furthermore, on crossnts from the victim's mother that supported Defendant's lack of opportunity to
stateme
lly abuse the victim, especially oh a weekly basis as the victim described. For
sexua
example, the victim's mother agreed that she structured her work schedule so that she
was the parent home with the children after school. Sge Trial Tr. Vol. II, 303:20-305:22;
see also id- at 307:9-11 (“[F]or the .
mother also agre

most part, I think I was home.”). The victim’s

ed that Defendant worked "a lot,” meaning five or six days a week, at

the job he held when the victim was ages seven through nine . See id. at 306:18307:25.

She also testified that Defendant went into the office “every day” after they

* The Court clarifies that, when7ead

line^ the letter1'5

allegations, contrary to Attorney Campbeirs
emphasizes: “That’s not sUtilto.^!

..... ‘ S»Apr. 26,
Ra her, the victim’s mother.

u
17

bought a business when the victim was eleven, whereas she only worked “Mother’s

n

hours.” See Trial Tr.Vol. Ill

313:15-315:7. Attorney Campbell focused on this lack of

opportunity in both her opening statement and her dosing argument. See Trial Tr. Vol.
in opening statement, how Defendant worked a lot while.
. II, 138:2-139:9 (discussing, in
victim's mother stayed home with the children); id. at 139:3-5 ("So when the State asks
you how could this have

happened, the answer, ladies and gentlemen, is quite simple, it

didn't happen. It didn't happen.”); see Trial Tr. Vol. Ill, 364:16-365:22 (noting, in closing
argument, the number of people living in the house and the parents’ work schedules
during the time pe

riod when the victim claimed Defendant would chase her “all around

the house” after taking her underwear).
In sum, obtaining the

letter in the counseling records would not have changed the

outcome of the trial because
C

(1) Attorney Campbell knew this information anyway and

(2) the victim’s mother testified to the same information contained in the letter.
Therefore,

Defendant has failed to demonstrate prejudice in this respect as well.

C. Information About “Lemons
Defendant argues that information

contained in the counseling records would

have allowed the defense to “extensively]

” cross-examine the victim about her interest

in sexually explicit fictional stories called “lemons

.” According to Defendant, these

lemons "are clearly relevant to establish [her] knowledge and capacity for graphic.
sexual description

, and also suggest a curiosity about sexual transgression ..

Disc./in Camera Review H 14.

Mot.

Defendant also asserts that he could have used the

junction with some of the counseling records, to argue to the jury
“lemon” theme, in conju
that the victim had romantic feelings for him and came up with a “lemon” expressing

18

those fantasies, which spun out of control and resulted in the sexual abuse charges.

n

At trial, Attorney Campbell asked the victim about “lemons,” which the victim
described as “racy

» stories on the internet written by fans of shows who “insert[]

themselves into sexually explicit stories' about those shows and post them online. Trial
Tr Vol. II, 216:5-217:6. Although the victim admitted reading “lemons” on her
computer, she denied ever writing any. Id. at217:9-218:1.
In his motion for discovery and at the hearing, Defendant asserted that "lemons'
"often containO themes of incest and rape.” Mot. Disc.rin Camera Review fl 14. The
Court is unsure of the basis for this assertion, as Defendant has not offered any
evidence or

relevant authority to support his contention about the thematic content of

- Nor is there any suggestion that the victim read “lemons” involving rape or
“lemons.
incest. Notwithstanding these issues, the Court assumes, for the sake of argument, that
Defendant’s assertion about “lemons” is correct and that the Court may properly
consider this assertion in the context of the present motion.
The victim’s counseling records do not contain any reference to “lemons.”
While Defendant argues the records show the victim fantasized about him, .the Court
disagrees. With respect to the June 23, 2009 counseling entry, the reference to the
victim’s private
fantasize

sexual behavior does not give rise to an implication that she sexually

d about Defendant; if anything, it gives rise to the opposite conclusion.

Additionally, the fact that the victim wondered abgut Defendant's well-being in January
after the pictures were found but before any disclosures were made- hardly
2009gives rise to the inference that she had sexual fantasies about him and created a
fictional story to express those fantasies.

In short, the counseling records do not

u
19

provide additional evidence relevant to the "lemon- theory, and thus trial counsel's

r

-\

failure to

obtain these records did not foreclose this theory of defense.

Indeed, “lemons” were asignificant theme in Attorney Campbell’s closing
argument. She argued

, for example, that the.victim’s descriptions of sexual activity

came from "lemons” she read online. §ee Trial Tr. Vol. III. 366:1^ ('Where would she
come up with these allegations?
think most of us learned a
at 377:25-378:1

How would a 15-year-old know what to say? Well, I

little something here yesterday about lemons.”); see also id-

(“[Wjhere else would she find out about masturbation with a sock,

lemons perhaps?”).

Attorney Campbell further argued that when the victim was brought

back to the CAC for the second interview
police found, “[slo she create[d] a lemon
Id. at 371:20—372:2; see a}so id

she needed to explain the explicit pictures the

. And Kevin [Thurlow] became the scapegoat.”

at 375:1—2 (“Or is it possible that this is [her] lemon

and that she had to create a story since pictures were found?”). Later in her closing
argument, Attorney Campbell returned to this theme, asserting that the victim “needed a
way out and she needed a lemon.” id- at 376:5-6.
As the preceding paragraph, illustrates, Attorney Campbell used the “lemon”
theory to

explain the victim’s basis of knowledge, just as Defendant suggests she

should have done.

Nothing in the victim's counseling records would have assisted trial

counsel in further developing this strategy or using it to greater effect . Accordingly,
Defendant cannot meet the prejudice prong

and thus he has failed to demonstrate that

he received ineffective assistance of counsel.
III.

npfpndant’s Pm Se Motion for New Counsel
Defendant's final argument is that the trial court erred by failing to rule on his

20

• 'f

motion for new counsel, which he filed a few months after he was indicted. See Def.'s

r

Be Appointed New Counoel [sic] [hereinafter Mot. New Counsel] (Doc. 9).
Mot. to
Defendant argues that this was an error by the trial court, as opposed to an error by trial
and thus his claim is not one for ineffective assistance.
counsel, see Mot. New Trial 4
he argues that the trial court abused its discretion by failing to inquire as to the
Instead,
basis for Defendant’s request for new counsel . See id.
The procedural c

ontext for Defendant’s motion is as follows. In late August 2010,

the Court held a structuring conference and trial was initially scheduled for January
2011.

The next event in the Court's file occurred on December 10,2010, when

Defendant filed a handwritten motion

“to be appointed a new councel [sic].” Mot. New

“In the past months councel [sic] has not made any
Counsel. The motion stated in full:
garding my case nor has [she] returned my phone calls and
attempts to contact me re
I would like this court to remove and replace my court appointed
messages I left,
attorney.” Id.
The file does not contain a written ruling on Defendant's motion. The Court has
recordings of the hearings held in the case during the relevant
also reviewed the audio
motion for new counsel is not mentioned on the record . The next
time period, and the
State’s motion to admit 404(b) evidence and its prospective witness
two filings are the
, on January 4, 2011, the date of the final pretrial hearing,
list See Docs. 10-11. Then
continue trial because ’‘the manufacturing charges
the parties filed an agreement to
[welre being referred for federal prosecution." Agreement 1 (Doo. 12). Defendant also
waived speedy trial. Id. at 2. He

continued to be represented by Attorney Campbell,

u
21

without incident, for the next two years.6 Indeed, Defendant’s motion for new counsel

r'

was

never referenced again until his October 24,2014 motion for new trial.
Defendant's request for appointment of new counsel in December 2010 was

based on his assertion that Attorney Campbell was not returning his phone calls or
otherwise contacting him about the case. Given Attorney Campbell’s active
involvement in the case thereafter, as evidenced by the Court’s file, the Court
reasonably

infers that any communication issue was resolved by Defendant and

Attorney Campbell to the satisfaction of both individuals. This conclusion is further
supporte

d by Defendant’s failure to object to proceeding with his current representation

after December 2010, or to

otherwise raise the issue at any time before or even during

trial. Defendant cannot now “comb the record on a treasure hunt for issues never
properly brought before the trial judge,

” fttatP v McCabe. 145 N.H. 686, 690 (2001)

(quotation omitted), after remaining silent on the issuei since December 2010. Accord
83 (1981) (“Errors discovered by combing the record after
State v. Cass, 121 N.H. 81
properly presented to the trial judge should not be utilized to set aside a
trial and never
verdict.’’)
Moreover, Defen

dant failed to raise the trial court’s failure to rule on this motion

in his direct appeal. Accordingly, Defendant is procedural^ barred from raising this
issue now

. Sge StatevJSnne, W N.H. 41,44-46 (2010) (noting ineffective

assistance

of counsel and legality of sentence claims are among limited exceptions to

rule that errors n

ot raised on direct appeal are procedural^ barred from collateral

attack); see also Averv v. Cunningham

131 N.H. 138,143 (1988) (“[Sjincethe

6 Although Defendant claims he suhseciuen^y attempted ^^''g^g^osenSestify at the Aprif 26, , the

u

2016’eviqentiary hearin^’nor doesTthe record provide independent support for this assertion.

22

petitioner had both knowledge of the issue and an opportunity to raise it properly before

r'

this court on direct appeal, but failed to do so, he has procedural^ waived the issue for
collateral review.”).
Even assuming, without deciding, that Defendant is not procedural^ barred from
raising this issue, the Court finds that it does not fall within the statutory bases for
granting a motion for new trial. RSA 526:1 provides that a motion for new trial may be
granted “when through accident, mistake or misfortune justice has not been done and a
further hearing would be equitable.” Here, Defendant has not raised, for example, a
claim of newly discovered evidence. See State v. Etienne, 163 N.H. 57, 96 (2011)
(recognizing that newly discovered evidence claim fails with RSA 526:1) . Instead,
Defendant points to the trial court’s failure to issue a ruling on a motion to appoint new
counsel that was filed in December 2010, approximately five months after he was first

c

indicted and nearly two years before he ultimately went to trial. In short, the only thing
“new” about this claim is that Defendant failed to bring it up again until nearly four years
after he filed the motion. Because this is not the type of claim encompassed by RSA
526:1, the Court declines to grant Defendant’s motion for new trial on this basis.
The Court’s conclusion is strengthened by the fact that Defendant makes no
substantive argument that he was prejudiced by the trial court’s failure to rule on his
“automatic”
motion, instead focusing on the trial court’s failure to inquire as a basis for
reversal. Mot. New Trial H 18 (quotation omitted). Defendant does not argue, for
example, that there was a significant breakdown in his relationship with Attorney
Campbell such that further inquiry by the Court would have led to the substitution of
counsel. Indeed , Defendant’s failure to raise the issue again until four years later

u
23

c- .

suggests that any disagreements he may have had with Attorney Campbell were not “so

o

great that [they] resulted in a total lack of communication preventing an adequate
defense

Moussa, 164 N.H. at 116 (quoting United States v. Woodard, 291 F.3d 95,

107 (1st Cir. 2002))
in her deposition

Instead, the more likely explanation, as Attorney Campbell noted

is that Defendant was frustrated at the lack of movement in his case

resulting from the parallel state and federal investigations. See Campbell Dep. 22:1117. Were frustration at institutional inertia enough to require substitution of counsel, the
criminal justice system, known for its slow-turning wheels, would be reduced to an
endlessly revolving door for defense attorneys.
The Court disagrees that State v. Sweeney, 151 N.H. 666 (2005), requires a
different result.

Sweeney is distinguishable for several reasons, the first of which is that

the case dealt with the constitutional right to self-representation. Sweeney, 151 N.H. at

L'

670-71. Defendant’s motion for new counsel cannot reasonably be construed as an
attempt to invoke the right to represent himself, and thus the trial court’s failure to rule
on this motion did not deprive him of the ability to exercise said right.
As Defendant pointed out at the hearing, Sweeney does discuss the issue of
substitution of counsel in conjunction with its discussion of the right to selfrepresentation. See jd. at 671-72 This is because there was some ambiguity in that
case

as to whether the defendant was attempting to proceed pro se or to substitute

counsel when he asked whether he could “fire” his attorney. See id at 669,671. Here,
there was no such ambiguity. Nevertheless, assuming Sweeney applies to a nonambiguous request to appoint new counsel, this case involves key factual differences
such that the trial court's failure to inquire does not require reversal here.

U
24

"Once a court appoints an attorney to represent an accused,. .. there must be

n

good cause for rescinding the original appointment and interposing a new one

United

“Good cause depends on objective
States v. ^yers, 294 F.3d 203,206 (1st Cir. 2002)
reasonableness.” jd. It "cannot be determined solely according to the subjective
standard of what the defendant perceives." Sfl/oodard, 291 F. 3d at 108 (quotation
omitted). Furthermore, “not every bump in the road entitles a criminal defendant to
have his lawyer cashiered and a new one appointed

Mvers, 294 F.3d at 206.

In Sweeney, the Supreme Court reversed because the trial court's failure to
inquire left the appellate court with no basis to determine whether there was good cause
to grant a motion to substitute counsel, jd. at 672. While the Sweeney court "ha[dl no
information as to the nature and extent of any conflict between the defendant and his
attorney,” jd- at 671, here

o

Defendant told the Court, via his motion for new counsel, that

his dissatisfaction was the result of Attorney Campbell's failure to return his messages
or to otherwise contact him about his case, see Mot. New Counsel. Because the record
establishes “the source

of the defendant’s dissatisfaction," Sweeney, at 151 N.H. at

the trial court's failure to inquire further does not leave this Court guessing as to
671,
true reason for Defendant’s request to appoint new counsel, see id, at 672.
the
Based on this record, the Court concludes that Defendant's complaint did not
provide good cause to appoint new counsel, as it did not suggest “a total breakdown in
communication

- that would “preclud[e] [Attorney Campbell] from effectively litigating the

issues remaining in the case

Mvers. 294 F.3d at 208. Nor is there any evidence to

suggest that these purported communication issues persisted or deteriorated during
Attorney Campbell's representation of Defendant after December 2010 . Indeed, the

u
25

Court's file and Attorney Campbell's deposition demonstrate that there was active
consultation between

herself and Defendant during the pendency of these charges.

See Campbell Dep. 12:16-

14:15,18:4-19:17, 20:11-21:22. Defendant’s failure to raise

further complaints about his representation supports this conclusion . Because
Defendant was never "told that he had no right to fire his attorney” by the trial court the
Court need not interpret his silence as an "assumlption] that he had no choice but to
continue with appointed counsel." Sweeney, 151 N.H. at 672. Instead, the Court may
and does find this silence relevant, although not dispositive in concluding that there
was no irretrievable breakdown in

communication between attorney and client and thus

Defendant suffered no prejudice from the trial court's failure to rule on his motion to
appoint new counsel

. Denial of Defendant’s motion, therefore, would not have been an

abuse of the trial court’s discretion

t

this

Because the trial court failed to rule on the motion,

had the same effect as denying the motion, and the same standard of review

applies.
Lastly,

the Court addresses Defendant’s suggestion that his four-year silence on

this issue—that is, his failure to raise it in any form after filing the December 2010
motion—should have no bearing on the Court’s analysis at this stage . Defendant
argues that his December 2010 motion requested relief in the form of the appointment
of new counsel, and that he was not obligated to renew this request; rather, it was the
trial court’s obligation to rule on this request. While the Court agrees that a defendant
need not refile his motion in order to convey that he "really meant" his request for relief,
it disagrees that Defendant's silence here should be deemed irrelevant.
The defendant bears the burden

of raising errors made by the trial court on direct

u
26

appeal. See State v. Martin. 145 N.H. 313, 315 (2000) (discussing defendant’s burden
with respect to raising appellate issues). Accordingly, it was Defendant’s obligation to
raise the trial court’s failure to rule on his motion when he appealed his convictions to
the Supreme Court. Because he remained silent on this issue, he is procedurally
barred from raising it in a collateral attack now.7 See Avery, 131 N.H. at 144
(“[Defendant cannot] use a collateral proceeding alleging ineffective assistance of
counsel as a means of circumventing the court’s procedural requirements.”).
Conclusion
For the reasons discussed above, Defendant’s motion for new trial is DENIED.
So Ordered.

it , >5/(f
Marguerite L. Wageling
Presiding Justice

Date
(

o:

7 Defendant does not claim that the failure to raise this issue constituted ineffective assistance of counsel.
27

I.

-w

THE STATE OF NEW HAMPSHIRE

r

JUDICIAL BRANCH
SUPERIOR COURT

Rockingham Superior Court
Rockingham Cty Courthouse/PO Box 1258
Kingston NH 03848-1258

NOTICE OF DECISION

Telephone: 1-855-212-1234
TTY/TDD Relay: (800) 735-2964
http://www.courts.state.nh.us

KELLY E. DOWD, ESQ
THE LAW OFFICES OF KELLY E DOWD PLLC
29 CENTER STREET SUITE 12
PO BOX 188
KEENE NH 03431
Case Name:
Case Number:

State v. Kevin Thurlow
218-2010-CR-01686

Please be advised that on July 27, 2016 Judge Wageling made the following order relative to:
Motion for Reconsideration - "Denied."

July 28, 2016

(273)
C: Karen H. Springer, ESQ

o
NHJB-2501-S (07/01/2011)

Maureen F. O'Neil
Clerk of Court

V

r

THE STATE OF NEW HAMPSHIRE
SUPREME COURT
In Case No. 2016-0460, State of New Hampshire v. Kevin
Thurlow, the court on September 28, 2016, issued the following
order:
Notice of appeal is declined. See Rule 7(1)(B).
Under Supreme Court Rule 7(1)(B), the supreme court may decline to
accept a notice of discretionary appeal from the superior or circuit court. No
appeal, however, is declined except by unanimous vote of the court with at least
three justices participating.
This matter was considered by each justice whose name appears below. If
any justice who considered this matter believed the appeal should have been
accepted, this case would have been accepted and scheduled for briefing.
Declined.

t i

Dalianis, C.J., and Hicks, Conboy, Lynn, and Bassett, JJ., concurred.

Eileen Fox,
Clerk
Distribution:
Rockingham County Superior Court, 218-2010-CR-01686
Honorable Marguerite L.Wageling
vltelly E. Dowd, Esq.
Attorney General
Appellate Defender
File

U

4

